                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

11   Case Number: 102100028



           In October 2002, OIG was contacted for the second time by a graduate student at a University.
           The student stated that his advisor, who started a small company, had him working on company
           projects but did not pay him or give him any credit. He also stated that his advisor took his work
           and was trying to get funding for it without giving him credit for the work or the idea.

           Despite numerous attempts to get the necessary information to evaluate the complainant's claim,
           OIG has not received any documentation to substantiate the allegation.

           Accordingly, this case is closed.




                            Investigator             Attorney                Supervisor                   AIGI
I



       Sign / date

                                                                                            NSF OIG Form 2 (11102)
